<html>
<title> - COMMITTEE RESOLUTION AMENDING COMMITTEE REGULATIONS TO PERMIT OFFICIALLY-SANCTIONED COMPETITIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     COMMITTEE RESOLUTION AMENDING
                    COMMITTEE REGULATIONS TO PERMIT
                   OFFICIALLY-SANCTIONED COMPETITIONS

=======================================================================

                            BUSINESS MEETING

                               BEFORE THE
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2015

                              
      Printed for the use of the Committee on House Administration
      
      
      [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
   
                              ____________
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-427                       WASHINGTON : 2015                        
                   
                   
_______________________________________________________________________________________                   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>  
                  
                   
                   
                   
                   
                   
                   
                   
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RICHARD NUGENT, Florida                Ranking Minority Member
RODNEY DAVIS, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
MARK WALKER, North Carolina

                           Professional Staff

                       Sean Moran, Staff Director
                  Jamie Fleet, Minority Staff Director

 
     COMMITTEE RESOLUTION AMENDING COMMITTEE REGULATIONS TO PERMIT 
                   OFFICIALLY-SANCTIONED COMPETITIONS

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:01 a.m., in Room 
1310, Rayburn House Office Building, Hon. Candice S. Miller 
[chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Walker, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; Cole Felder, Counsel; Nick Hawatmeh, Counsel; John L. 
Dickhaus, Legislative Clerk; Erin McCracken, Communications 
Director; Jamie Fleet, Minority Staff Director; Matt Pinkus, 
Minority Senior Policy Advisor; Khalil Abboud, Minority Deputy 
Staff Director/Director of Legislative Operations; Mike 
Harrison, Minority Chief Counsel; and Eddie Flaherty, Minority 
Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee meeting. A quorum is 
present, so we may proceed. The meeting record will remain open 
for 5 legislative days so that members might submit any 
materials that they wish to be included herein.
    The resolution before the Committee today is to authorize 
officially-sanctioned academic competitions aimed at students 
in each Members' congressional district. This resolution would 
modify the Members' Congressional Handbook to permit offices, 
in conjunction with other organizations, to conduct academic or 
civic competitions similar to the art competition. More 
specifically, the resolution would also allow offices to use 
specific official congressional resources to assist those 
competitions.
    Having just concluded my office's official annual art 
competition, which included hundreds of high school students 
from across my district, I can certainly attest to the value of 
these academic competitions.
    First, these competitions give Members of Congress an 
opportunity to highlight the achievements and talents of young 
students in their districts. Every year, I am absolutely amazed 
by the artwork created by the students in my district and so 
many others, and I look forward to seeing each year's artwork 
display in the Cannon tunnel. It is certainly a great testament 
to the talent and diversity of young artists in this country.
    As well, the Congressional app competition, which just 
started last year, brought in a wide array of submissions that 
demonstrated a high level of skill as well as promise for 
participating students seeking careers in STEM--science, 
technology, engineering, and mathematics fields--which are in 
high demand and very important to today's global economy. 
Equally important is the inspiration these types of academic 
challenges provide young men and women our future leaders.
    Whether it is art or science or technology, these 
competitions are beneficial for students and help spark an 
interest in various fields that help them with their own 
professional development. They also facilitate greater 
community engagement, pulling the academic community together 
with parents and professionals, who together help students hone 
their talents and realize their full potential. These are great 
competitions that I know so many Members are proud to host.
    As I mentioned, the resolution the Committee is considering 
today will help facilitate the continuation and expansion of 
these competitions by allowing Member offices, in conjunction 
with other organizations, to use their resources to host them 
in their districts.
    With that, I would recognize Mr. Vargas, who is here for 
our ranking member this morning, if he has any opening 
statement.
    Mr. Vargas. I do. And thank you very much, Madam 
Chairwoman. Thank you, again, for considering this Committee 
resolution and for holding this markup this morning. I am 
filling in for our ranking member, who was unavoidably 
detained. So I ask unanimous consent to have his statement 
entered into the record.
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Vargas. Thank you. Thank you, Madam Chair.
    I urge the Committee to adopt this resolution. After last 
year's inaugural STEM competition, we decided that we wanted to 
make changes to improve the contest, making it more meaningful 
for the contestants and enabling more Members' offices to 
participate. In approving these regulations, we have done just 
that. Because of this work, this year's competition is poised 
to even be better, as we have included provisions allowing for 
technical support and advice that might otherwise be 
unavailable to some Members.
    We have worked with the Ethics Committee to make the rules 
around officially-sanctioned competitions compliant with all 
rules of the House. This work will create a path forward for 
others who have similar ideas about how to engage constituents.
    Madam Chairman, I would like to thank you and your staff 
for your hard work on this, and I urge adoption of the 
resolution.
    The Chairman. I thank the gentleman.
    Are there any other members of the Committee that wish to 
be recognized for a statement?
    Therefore, I will now call before the Committee our first 
agenda item, Committee Resolution 114, which is the Committee 
resolution amending the Committee's regulations to permit 
officially-sanctioned competitions.
    Without objection, the first reading of the resolution is 
dispensed with and the resolution is considered read and open 
for amendment at any point.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. This resolution, as we have discussed, would 
modify the Members' Congressional Handbook to permit offices, 
in conjunction with other organizations, to conduct academic or 
civic competitions similar to the art competition.
    Mr. Vargas, do you have any comment on the resolution?
    Mr. Vargas. I do not.
    The Chairman. Any other member?
    Then I would move that the Committee adopt the Committee 
resolution. And the question is on the motion to adopt the 
resolution.
    I would ask all the members who are in favor of the motion, 
signify by saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it. The motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    I would also ask unanimous consent to enter into the record 
an advisory opinion that Mr. Brady and I have received from the 
Committee on Ethics concerning these regulations.
    Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And I would ask unanimous consent as well 
that the staff be authorized to make technical and conforming 
changes to the measure the Committee just considered and to 
make other modifications with the concurrence of the ranking 
minority member of the Committee and notification to all 
members of the Committee.
    Without objection, so ordered.
    Any other comments from any members? If not, this concludes 
the fastest markup in this Committee's history, I think.
    Without objection, the meeting is adjourned. Thank you. And 
thank you all for coming.
    [Whereupon, at 11:06 a.m., the Committee was adjourned.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
